U.S. Department of Labor	               Office of Inspector General
                                        Washington, D.C. 20210




February 24, 2011

Mr. Thomas H. McTavish, CPA
Auditor General
201 N. Washington Square
Lansing, Michigan 48913

      Recovery Act: Quality Control Review of the Single Audit of the State of
      Michigan Unemployment Insurance Agency Administration Fund for the
      Year Ended September 30, 2009


Dear Mr. McTavish:

The purpose of this final report (Report Number 18-11-003-03-315) is to formally
advise you of the results of a Quality Control Review (QCR) the U.S. Department
of Labor (DOL), Office of Inspector General conducted of the following audit
performed by Andrews, Hooper & Pavlik, P.L.C. under the Federal Single Audit
Act (Act) and Office of Management and Budget Circular A-133 (A-133):

      Single Audit of the State of Michigan Unemployment Insurance
      Agency – Administration Fund for the Year Ended
      September 30, 2009.

The objectives of the QCR were to determine whether (1) the audit was
conducted in accordance with applicable standards and meets the single audit
requirements, (2) any follow-up work is needed, and (3) there are any issues that
may require management’s attention.

The major programs included in our review were:

DOL Major Programs Reviewed
                                         Catalog of Federal
                                                 Domestic              DOL Funds
Major Program                           Assistance Number               Expended
Unemployment Insurance (UI)                          17.225           $170,276,325
American Recovery and
Reinvestment Act (Recovery Act) –                            17.225
UI                                                                      $1,483,646
Total DOL Funds Expended 	                                            $171,759,971


                     Working for America’s Workforce
                                       –2–



Based on our review of the audit documentation related to the programs above,
we determined that the audit work performed was acceptable and met the
requirements of the Act and A-133. No follow-up work is required and there are
no issues that require management’s attention.

Since our review included Recovery Act funds, we are required by the Recovery
Act to post this report on our website www.oig.dol.gov and link it to the Recovery
Accountability and Transparency Board’s website www.recovery.gov.

If you have any questions concerning the results of the QCR, please contact
Melvin Reid, Director, Office of Audit Quality Assurance, at (202) 693-6993.

Sincerely,




Elliot P. Lewis
Assistant Inspector General
 for Audit


cc: Mr. Roger Hitchcock, Partner, Andrews, Hooper & Pavlik, P.L.C.

   Mr. Stephen M. Geskey, Director, Unemployment Insurance Agency, 

   Department of Energy, Labor and Economic Growth 


   Ms. Shirley Callahan, Director of Financial Services, Finance and
   Administrative Services Bureau, Department of Energy, Labor and Economic
   Growth

   Ms. Judith A. Fisher, Director, Division of Policy, Review, and Resolution,
   Employment and Training Administration
